0

BECKER GALLAGHER
Briefs

and

DONNA
JULIE

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief Amicus Curiae
Consumer Energy Alliance in Support of Petitioner in
19-1039, PennEast Pipeline Company, LLC v. New
Jersey, et al., were sent via Next Day Service and email to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 23rd day of March, 2020:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner
Gurbir S. Grewal
Attorney General of New Jersey
Jeremy M. Feigenbaum
Jason W. Rockwell
Assistant Attorneys General
Mark Collier
Deputy Attorney General
25 Market Street
P.O. Box 093
Trenton, NJ 08611-2148
gurbir.grewal@njoag.gov
jeremy.feigenba um@njoag.gov
j ason.rockwell@njoag.gov
mark.collier@law .njoag. gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati , Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER, J.D.

Edward Lloyd
Morningside Heights Legal Services, Inc.
Columbia Law School
435 West 116th Street
New York, NY 10027
(973) 495-377 4
elloyd@law.columbia.edu
Counsel for Respondents New Jersey Conservation
Foundation and Hunterdon Land Trust
Hala A. Sandridge
Counsel of Record
Buchanan Ingersoll & Rooney PC
SunTrust Financial Centre
401 East Jackson Street, Suite 2400
Tampa, FL 33602
813-222-1127
Hala.Sandridge@bipc.com
Victoria B. Kush
Buchanan Ingersoll & Rooney PC
Union Trust Building
501 Grant Street, Suite 200
Pittsburgh, PA 15219
412-562-1694
Victoria.Kush@bipc.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 23, 2020.

Doi'i'n a J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

tv/fl1Jvd ~~ 10~

(13,~ (1}.&h/:l.

Notary Public
[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

